 DOE/IG-0570




                              DEPLETED URANIUM OPERATIONS
                              AT THE Y-12 NATIONAL SECURITY
          AUDIT                          COMPLEX
         REPORT




                                              SEPTEMBER 2002




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                    U. S. DEPARTMENT OF ENERGY
                          Washington, DC 20585

                             September 25, 2002



MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Depleted Uranium Operations
                         at the Y-12 National Security Complex"


BACKGROUND

As part of its program to ensure the performance of the nation's inventory of nuclear weapons,
the Department of Energy must maintain the capability to manufacture nuclear weapons
"secondaries." Secondaries contain the fusion stage of modern nuclear weapons and create
most of the explosive yield.

Currently, the Y-12 National Security Complex in Oak Ridge, Tennessee, is the only site
capable of manufacturing and remanufacturing certain unique components necessary for
assembling the secondaries. Many of these components are produced at Y-12's Depleted
Uranium and Binary Metal Cycle Operations facility, the sole producer of several of the key
components. We conducted this audit to determine if the National Nuclear Security
Administration (NNSA) can ensure the facility's reliability.

RESULTS OF AUDIT

Y-12's depleted uranium facility is currently producing needed components, but it relies on
production equipment that, in many cases, is outdated, damaged, or beyond repair. Our
analysis of the condition status of this equipment suggests that NNSA's ability to manufacture
needed parts in the future may be in jeopardy. We found, for example, that a 42-year old
hydraulic press, used to forge virtually all parts manufactured at the facility, had significant
damage and that this damage is so serious that it will ultimately lead to failure of the press. We
were surprised to find that a replacement press, on site for well over a year, had not been
installed because Y-12 had not budgeted for its installation. Similarly, six of seven specialized
furnaces used to melt uranium had failed, yet Y-12 had not installed an available replacement.
We noted other examples of production equipment that had exceeded its useful life, required
significant maintenance, or was put in place as a temporary substitute or stopgap measure for
original equipment.

The audit disclosed that Y-12 had not followed through on a number of initiatives intended to
address these problems. Additionally, NNSA had not established useful performance metrics
and contract incentives to ensure program performance. If the Depleted Uranium process fails,
NNSA may not be able to meet its weapons stockpile requirements. Furthermore, excessive
maintenance costs were being incurred and prior investments in new equipment were at risk.
We recommended that NNSA and Y-12 undertake a series of immediate actions to enhance
maintenance procedures and ensure continued depleted uranium operations.
                                               -2-


The Office of Inspector General has identified Stockpile Stewardship as one of the most
significant challenges the Department and NNSA face. Several of our recent reports,
including National Nuclear Security Administration's Test Readiness Program (DOE/IG-
0566, September 2002), The Department of Energy's Pit Production Project (DOE/IG-0551,
April 2002), and Stockpile Surveillance Testing (DOE/IG-0528, October 2001), emphasized
the need for prompt action to address various factors with the potential to affect stockpile
reliability. Our current findings regarding depleted uranium operations at Y-12 are consistent
with our earlier observations.

MANAGEMENT REACTION

Management concurred with our findings and recommendations, but was concerned that our
report over-simplified the reliability and vulnerability of depleted uranium operations, noting
that no one could assure a zero risk of failure.

We agree that a zero risk is not possible, but our report identifies much that can be done to
reduce the likelihood that equipment failures will interrupt depleted uranium operations.



Attachment

cc: Chief of Staff
    Acting Administrator, National Nuclear Security Administration
    Under Secretary for Energy, Science, and Environment
DEPLETED URANIUM OPERATIONS AT THE Y-12 NATIONAL
SECURITY COMPLEX

TABLE OF
CONTENTS



                Overview

                Introduction and Objective .......................................................... 1

                Conclusions and Observations.................................................. 1


                Depleted Uranium Operations Process

                Details of Finding ........................................................................ 2

                Recommendations and Comments ........................................... 7


                Appendices

                Scope and Methodology ............................................................. 8

                Related Audit Reports ................................................................ 9

                Management Comments .......................................................... 10
OVERVIEW

INTRODUCTION AND   The Department of Energy (Department) is responsible for maintaining
OBJECTIVE          the safety, reliability, and performance of the nuclear weapons in the
                   Nation's stockpile. Since the moratorium on underground testing in
                   1992, these responsibilities have been met through the Stockpile
                   Stewardship Program. This program, managed by the National Nuclear
                   Security Administration (NNSA), outlines the activities necessary to
                   sustain and refurbish all of the nuclear weapons in the active and
                   inactive stockpile. These activities include providing the required
                   production capability to refurbish weapons on schedule and sustaining
                   production competence to support production needs.

                   The Y-12 National Security Complex (Y-12) is an integral part of this
                   production process. Specifically, Y-12 is the only site capable of
                   manufacturing and remanufacturing the unique components necessary
                   for assembling nuclear weapon secondaries. Many of these
                   components are produced at Y-12's Depleted Uranium and Binary
                   Metal Cycle Operations (Depleted Uranium) facility. Because the
                   Depleted Uranium facility is the sole producer of these key
                   components, we conducted the audit to determine if NNSA can ensure
                   its reliability.


CONCLUSIONS AND    Although the Depleted Uranium facility is currently able to
OBSERVATIONS       manufacture components, NNSA cannot ensure the continued reliability
                   of its process. Much of the production equipment presently in use has
                   exceeded its useful life, has required significant maintenance, or was
                   added as a substitute for the original equipment. Further, while some
                   new equipment had been purchased, it had not been installed and had
                   begun to degrade. This occurred because Y-12 had not completed a
                   previous consolidation effort, had placed key projects on hold, and had
                   not established useful performance-based incentives. If the depleted
                   uranium process fails, NNSA may not be able to meet its weapons
                   stockpile requirements. Furthermore, increased maintenance costs were
                   being incurred and prior investments in new equipment were at risk.

                   In our opinion, the matters discussed in this report represent material
                   internal control weaknesses that should be considered when preparing
                   the year-end assurance memorandum on internal controls.


                                         ___________(Signed)___________
                                               Office of Inspector General




Page 1                                                      Introduction and Objective/
                                                         Conclusions and Observations
Depleted Uranium Operations Process


Production Equipment   At present, the Depleted Uranium facility is capable of producing
Reliability            weapons components; however, the future reliability of the process is
                       not assured.


                                       Equipment Maintenance and Operation

                       Y-12 began manufacturing weapons components from depleted
                       uranium in the 1950's, and, in some cases, is still relying on machinery
                       installed at that time. One particular piece of equipment we observed, a
                       7500-ton hydraulic press, had been operating for over 42 years.
                       Generally, each weapons part processed at the Depleted Uranium
                       facility must be forged through this press. Despite the fact that this
                       press had sustained, documented, irreparable damage that would
                       ultimately lead to its failure, the Y-12 plant had no contingency
                       capability for forging operations. If the press suffers a catastrophic
                       failure, production of depleted uranium parts will be interrupted until a
                       replacement press is put into full production mode.

                       Another part of the production process requires the use of Vacuum
                       Induction Melt (VIM) furnaces. For Y-12 to produce one certified
                       component part, metals, including uranium, must be melted in the VIM
                       furnaces during three separate stages. Yet, Y-12 has only one of its
                       seven VIM furnaces operating. Since 1998, the Department has
                       planned to restart two of the other VIM furnaces. However, due to the
                       low priority placed on these projects, Y-12 has yet to complete these
                       actions.

                       While the hydraulic press and the one VIM furnace have not yet
                       completely failed, other pieces of equipment have, forcing Y-12 to
                       perform vital processes using alternative methods. For example, an
                       abrasive saw, used in conjunction with the melting process, was shut
                       down in 1999. Since that time, machine tools have been used to saw
                       the material. Although this method has worked, it has slowed
                       production time significantly. Cutting the material with a machine tool
                       takes hours; the abrasive saw, in contrast, cuts the material in a matter
                       of minutes.




Page 2                                                                       Details of Finding
                                            New Equipment Procurement

                      Several new pieces of equipment have been purchased to replace or
                      support existing equipment; however, these components have not been
                      put into operation and have begun to degrade in place. For example, a
                      3500-ton press, procured to replace the 7500-ton press, has been sitting
                      idle at Y-12 for more than a year. The new press was fabricated in
                      1999 with specific design requirements to enhance reliability and
                      reduce health and safety concerns. After sitting at the manufacturer's
                      factory for over a year, the press was assembled at Y-12 in March 2001.
                      It has been sitting untested and inoperable since that time. Y-12 project
                      managers estimate that it could take up to two years to bring the new
                      press online. A new abrasive saw was also procured as part of the
                      Fiscal Year (FY) 1998 Stockpile Management Restructuring Initiative
                      (SMRI) project, but as of May 2002, the saw remained at the vendor's
                      factory.

                      Other tasks of the 1998 SMRI included the replacement of one VIM
                      furnace and the refurbishment of another. At the time of our audit,
                      however, the replacement furnace had not been installed and the other
                      furnace had not been refurbished. According to project managers, once
                      the installation and refurbishment are completed, it will take at least
                      two years before the furnaces are fully operational.

Maintaining Weapons   The 1994 Nuclear Posture Review required NNSA to maintain the
Capabilities          capability to design, fabricate, and certify new warheads, and
                      demonstrate the capability to refabricate and certify weapon types in the
                      enduring stockpile. The latest production and planning directives
                      require NNSA and Y-12 to maintain and/or provide capabilities to meet
                      stockpile maintenance requirements for weapon systems. Because
                      many of these systems require processing through the Depleted
                      Uranium facility, it is imperative that NNSA maintain the equipment in
                      accordance with Departmental requirements.

                      Departmental orders require that the Department and its contractors
                      plan, acquire, operate, maintain and dispose of physical assets in a
                      manner to meet Departmental missions. Specifically, Order 430.1A,
                      Life Cycle Asset Management, requires: (1) the establishment of
                      requirements, budgets, and a work management system to maintain
                      physical assets in a condition suitable for their intended use; and (2) the
                      preventative, predictive, and corrective maintenance to ensure physical
                      asset availability for planned use and/or proper disposition. Further,
                      Departmental Order 433.1, Maintenance Management Program for
                      DOE Nuclear Facilities, requires periodic inspections of structures,

Page 3                                                                       Details of Finding
                      systems, components, and equipment to determine whether degradation
                      or technical obsolescence threatens performance and/or safety.

Program and Project   Problems with the Depleted Uranium facility's production equipment
Management            occurred because Y-12 had not completed an earlier consolidation
                      effort, had placed key projects on hold, and had not established useful
                      performance-based incentives.

                                               Consolidation Efforts

                      The reliability of depleted uranium operations was compromised by a
                      consolidation effort that was never completed. In 1992, the Department
                      began efforts to consolidate equipment into a centralized area to
                      enhance operations and to reduce the depleted uranium operations
                      footprint. The Department moved the best of its duplicate equipment
                      while continuing operations with backup equipment. Since the
                      consolidation effort was never completed, Y-12 has been relying on the
                      backup equipment. Some of the moved equipment, left inoperable for
                      more than a decade, has degraded to the point that it must be replaced.
                      For example, a relatively new oven was moved to the consolidation site
                      in 1992. The oven had been reliable up to that point, but it had not been
                      operated or maintained since it was moved. Due in part to its poor
                      physical condition, Y-12 is planning to procure a new oven as part of a
                      current consolidation effort.

                      Certain depleted uranium material must also be put through a process
                      called shearing. The machine designed to perform this operation was
                      moved in the earlier consolidation effort and has been inoperable ever
                      since. Consequently, Y-12 had been using another type of shear.
                      While this alternative method meets current production requirements, it
                      will not work on material needed for future requirements.

                                                  Projects on Hold

                      In February 2001, NNSA placed key projects on hold due to project
                      management concerns. In response to these concerns, Y-12 submitted a
                      Baseline Change Proposal for the 3500-ton press in September 2001.
                      To date, Headquarters has not approved the change proposal and the
                      project remains on hold. Further, the project had received no funding in
                      FY 2002, and no funding was requested in the FY 2003 budget. As an
                      alternate approach, the Y-12 Area Office is working with Headquarters
                      to reprogram funds from other projects.




Page 4                                                                     Details of Finding
                   NNSA also placed the SMRI project, which includes the VIM furnaces
                   and abrasive saw, on hold in February 2001. Although NNSA has
                   funds available to complete the project, Headquarters has not yet
                   approved a change proposal. Headquarters will not approve the
                   Baseline Change Proposal until all subtasks in the SMRI are more
                   clearly defined.

                                             Performance Metrics

                   While NNSA developed measures to ensure that maintenance activities
                   protected process equipment, the metrics and incentives were
                   insufficient. In fact, in March 2001, the Defense Nuclear Facilities
                   Safety Board (DNFSB) reported that Y-12's established performance-
                   based metrics and award fee milestones contained few incentives for
                   corrective action and did not define explicit, measurable end results. A
                   follow-up DNFSB report issued in November 2001, noted that the
                   maintenance metrics still were not adequate.

                   Weaknesses in metrics were especially noticeable in the equipment for
                   the Depleted Uranium facility. For instance, in FY 2001, Y-12 had a
                   performance metric to complete at least 85 percent of scheduled
                   preventive maintenance work. However, the metric did not establish
                   minimum requirements for scheduling preventive maintenance, nor did
                   it define what activities were considered to be preventive. Although
                   Y-12 has implemented a new preventative maintenance pilot program,
                   we noted that the program does not include Depleted Uranium facility
                   equipment.

Future Stockpile   Without fully functioning depleted uranium operations, NNSA cannot
Requirements       ensure that it will have the capabilities and capacities needed to meet its
                   future production requirements. Refurbishments of some weapon
                   systems require components from the Depleted Uranium facility, and, if
                   the 7500-ton press or the remaining VIM furnace become inoperable,
                   Y-12 will not be able to produce required parts. The failure of this
                   press alone could halt depleted uranium operations for up to two years.

                   Additionally, NNSA is spending $10 million a year in maintenance
                   costs on the old process buildings. NNSA had planned to consolidate
                   depleted uranium operations into a smaller, safer area. However, until
                   equipment such as the new 3500-ton press is operational, NNSA is
                   forced to maintain the old process buildings, including one that houses
                   the damaged 7500-ton press.




Page 5                                                                    Details of Finding
         NNSA's investment in the 3500-ton press is also at risk. To date,
         NNSA has spent $18 million, and is planning to spend another
         $10 million to make the press operational. Even so, NNSA and the
         press manufacturer are concerned about the degradation of the press.
         The power supply has not been installed, and the press has not been
         exercised to prevent the seals from deteriorating, or the lubricant
         protected parts from rusting. In December 2001, NNSA directed Y-12
         to take steps to protect the press, but it took another 5 months before
         Y-12 began protective measures. While the factory warranty is good
         through June 2003, it will most likely expire before the press is even
         tested, much less put into operation.

         Finally, the risk of exposing plant workers to health and safety hazards
         remains at an increased level as long as depleted uranium operations
         continue in the old process buildings. In the FY 1997 budget request,
         Y-12 managers stated that: (1) process building ventilation systems
         average 50 percent availability, (2) half or less of the supply and
         exhaust fans work, (3) inlet screens were choked with debris, and (4)
         filters were completely plugged1. The managers further stated that there
         were significant problems with the electrical distribution systems and
         that cooling water systems were badly corroded.




         1
          Y-12 management stated that the problems with the inlet screens and plugged filters
         have been corrected as a result of actions taken in February 2002, such as changing
         out 1,000 filters.
Page 6                                                                 Details of Finding
RECOMMENDATIONS   We recommend that the Deputy Administrator for Defense Programs
                  ensure that Y-12 has the capabilities and capacities to meet its current
                  and future stockpile requirements by:

                         1. Reviewing Baseline Change Proposals in a timely manner to
                            ensure that Depleted Uranium projects are not delayed
                            unnecessarily; and,

                         2. Requesting adequate funding necessary to complete key
                            projects.

                  We recommend that the Manager, Y-12 Site Office, direct BWXT
                  Y-12, LLC to:

                         3. Immediately begin preventative maintenance on all Depleted
                            Uranium equipment in use or planned to be in use;

                         4. Establish and implement the contingency plan for preserving
                            the 3500-ton press; and,

                         5. Develop and implement performance-based incentives and a
                            comprehensive maintenance implementation plan.


MANAGEMENT        Management concurred with our finding and recommendations but did
REACTION          not provide a corrective action plan. Management believed that our
                  report over-simplified the reliability and vulnerability of depleted
                  uranium operations, and that no one could assure a zero risk of failure.
                  NNSA stated that it invests resources based on a risk analysis of all its
                  production capabilities, including depleted uranium processes.
                  Management believes that its Facilities and Infrastructure Replacement
                  Initiative will reduce the risks of production processes.

                  Management comments are included in their entirety as Appendix 3.


AUDITOR COMMENT   We do not expect NNSA to assure a zero risk of failure in production
                  equipment, but we believe that much can be done to reduce risks, such
                  as performing routine preventive maintenance activities. The Facilities
                  and Infrastructure Replacement Initiative may aid in reducing some
                  building risks, but it currently does not address the risks in depleted
                  uranium equipment.




Page 7                                              Recommendations and Comments
Appendix 1
SCOPE         This audit was performed from January 9, 2002, through June 20, 2002,
              at the Y-12 National Security Complex (Y-12) in Oak Ridge,
              Tennessee. The audit included Depleted Uranium operations at Y-12
              from 1992 through June 2002.


METHODOLOGY   To accomplish the audit objective, we:

                 • Interviewed NNSA and contractor personnel responsible for
                     Depleted Uranium operations;

                 • Reviewed production and planning directives and program
                     control documents;

                 • Reviewed the Y-12 Depleted Uranium Operations Plan dated
                     August 2001;

                 • Analyzed the condition of equipment currently used in the
                     Depleted Uranium facility as well as planned upgrades;

                 • Reviewed maintenance operations, records and reports;

                 • Evaluated plans for consolidating the Depleted Uranium
                     operations; and,

                 • Reviewed NNSA's planned capital project improvements for
                     Depleted Uranium operations.

              The audit was performed in accordance with generally accepted
              government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              rely on computer-generated data to achieve our objective. Management
              waived an exit conference.




Page 8                                                     Scope and Methodology
Appendix 2
                                       RELATED AUDIT REPORTS

         Office of Inspector General

         • National Nuclear Security Administration's Test Readiness Program, (DOE/IG-0566,
            September 9, 2002). The report determined that Nevada's ability to conduct an
            underground nuclear test within the specified timeframe was at risk. Specifically, key
            aspects of the Department's testing process and infrastructure had experienced significant
            degradations in the last decade, including a decline in the number of employees with
            testing experience; the deterioration of necessary systems and equipment; the inability to
            keep pace with new technology; and, delays in updating required safety studies.

         • Management of the Stockpile Surveillance Program's Significant Finding Investigations
            (DOE/IG-0535, December 2001). We found that the Department has not been meeting
            internally established timeframes for initiating and conducting investigations of defects and
            malfunctions in nuclear weapons. If these delays continue the Department may not be in a
            position to unconditionally certify the aging nuclear weapons stockpile.

         • Stockpile Surveillance Testing (DOE/IG-0528, October 2001). The audit revealed that
            since at least 1996, the Department has not met many of its internally generated milestones
            for flight laboratory and component tests. Without needed test data, the Department's
            ability to assign valid reliability levels to some weapons systems is at risk.

         • Management of the Nuclear Weapons Production Infrastructure (DOE/IG-0484,
            September 2000). This report stated that the nuclear weapons production infrastructure has
            not been adequately maintained. As a result current and future goals of the stockpile
            stewardship program are at risk.

          General Accounting Office

         • Nuclear Weapons Key Nuclear Weapons Component Issues Are Unresolved (GAO/
            RCED-99-1, November 1998). The review found that although the Department is
            responsible for managing the nation's stockpile of nuclear weapons, it lacks the capability
            to produce a key nuclear weapons component for use in the stockpile.

         • Nuclear Weapons Improved Management Needed to Implement Stockpile Stewardship
            Program Effectively (GAO-01-48, December 2000). Although the Office of Defense
            Programs had taken steps to address principal challenges facing the Stockpile Stewardship
            Program, additional improvements were needed. Specifically, improvements were needed
            in order to (1) remedy weaknesses in the program's planning process, (2) ensure that
            required budget information for effective cost management was available, (3) correct
            organizational and leadership deficiencies, and (4) develop an effective management
            process for overseeing the life extension program for nuclear weapons.


Page 9                                                                             Related Audit Reports
Appendix 3




Page 10      Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
                                                                              IG Report No.: DOE/IG-0570

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
